  Office of Inspector General
      Audit Report


NATIONAL ENVIRONMENTAL POLICY ACT:
   FRA COORDINATES AS REQUIRED
    BUT OPPORTUNITIES EXIST TO
    MODERNIZE PROCEDURES AND
     IMPROVE PROJECT DELIVERY
       Federal Railroad Administration


        Report Number: CR-2014-010
        Date Issued: December 5, 2013
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: National Environmental Policy Act:                                   Date:    December 5, 2013
           FRA Coordinates As Required But Opportunities
           Exist to Modernize Procedures and Improve
           Project Delivery
           Federal Railroad Administration
           Report Number: CR-2014-010


  From:    Mitchell L. Behm                                                          Reply to
                                                                                     Attn. of:   JA-50
           Assistant Inspector General for Rail, Maritime,
            Hazmat Transport and Economic Analysis

    To:    Federal Railroad Administrator

           As part of its $10.1 billion High Speed Intercity Passenger Rail Program (HSIPR),
           the Federal Railroad Administration (FRA) collaborates with project grantees, the
           Federal Highway Administration (FHWA), and the Federal Transit Administration
           (FTA) on both construction and compliance with the National Environmental
           Policy Act’s (NEPA) requirements. The President’s Council on Environmental
           Quality (CEQ) is responsible for implementing NEPA and Federal agencies are
           required to follow CEQ regulations and develop procedures as necessary to
           ensure proper consideration of environmental concerns in agency decision-
           making. Until HSIPR’s inception, FRA had undertaken comparatively few NEPA
           reviews, because it historically focused on rail safety. With recent legislation
           aimed at improving project delivery of surface transportation projects, primarily
           through reforming environmental issues, 1 and as construction begins on many
           HSIPR projects, there is growing interest among grantees and other stakeholders
           regarding the variation among modal agencies in handling NEPA reviews. There
           is also growing interest in the degree to which FRA coordinates with FHWA and
           FTA.



           1
             Moving Ahead for Progress in the 21st Century (MAP-21) became law on July 6, 2012, and authorizes Federal-aid
           highway programs for 2 years while maintaining current spending levels. MAP-21 also focuses highway programs on
           key outcomes to ensure that taxpayers are receiving the most for their money.
                                                                                                                 2


We initiated this audit to address questions surrounding the adequacy of FRA’s
procedures for navigating the NEPA process and review concerns raised by
stakeholders. For example, some grantees told us that they have had to rely on
guidance from other DOT modes to navigate the process and some State officials
have suggested that DOT’s modes need to consider a “one U.S. DOT” approach to
the NEPA process, in which they all use the same implementing procedures. After
we began our review, the Chairman of the House Committee on Transportation
and Infrastructure requested that we conduct additional work as part of our audit.
Specifically, the Chairman asked that we evaluate the impact that differing
authorities mandated to FHWA and FTA by Titles 23 and 49 of the U. S. Code
have on FRA’s ability to coordinate with those operating administrations (OA) to
expeditiously complete NEPA reviews. We completed this evaluation while
executing our audit objectives which were to (1) assess FRA’s procedures for
coordination with FHWA and FTA to ensure compliance with NEPA
requirements, and (2) determine whether the procedures incorporate relevant
statutory requirements and CEQ guidance.

To conduct our audit, we assessed existing policies, procedures and guidance
against CEQ’s regulations. Specifically, our legal staff identified applicable laws
and regulations the Agency must follow, and assessed FRA’s NEPA implementing
procedures for compliance with these requirements, including coordination with
modal counterparts on NEPA and the impact of Titles 23 and 49 of the U.S. Code
on such coordination. We also met with officials at FRA, FHWA, FTA, and the
Office of the Secretary of Transportation (OST) to gain an understanding of
coordination on NEPA’s requirements among the OAs and the impact of differing
statutory authorities our legal analysis addressed. Furthermore, we administered a
questionnaire to program participants from HSIPR, the Rail Line Relocation and
Improvement Capital Grant Program 2 (RLR), and the Railroad Rehabilitation and
Improvement Financing Program 3 (RRIF) regarding their experiences with FRA’s
NEPA process and guidance. 4 We performed our work from September 2012
through September 2013 in accordance with generally accepted Government
auditing standards.




2
  RLR is a grant program implemented by FRA to assist State and local governments in mitigating the adverse effects
created by the presence of rail infrastructure.
3
  RRIF is program implemented by FRA that provides direct federal loans and loan guarantees to finance the
development of railroad infrastructure.
4
  We sent our survey to nine HSIPR and nine RRIF participants on the basis of total funding amounts. Nine RLR
participants were randomly selected. Rates of response to the survey varied. Eight HSIPR grantees, four RRIF
participants, and four RLR participants responded.
                                                                                                            3


RESULTS IN BRIEF

FRA coordinates with FHWA and FTA in compliance with NEPA, and is working
with OST to further enhance coordination on the Department’s multimodal
projects. Based on our legal analysis, we found that FRA’s implementing
procedures comply with CEQ’s requirements for coordination, and the differing
authorities in Titles 23 and 49 of the U.S. Code do not appear to impact its ability
to coordinate with FHWA and FTA. Additionally, environmental law and policy
experts at FHWA and FTA referred to CEQ regulations and DOT’s NEPA order,
stating that the regulatory content is thorough and sufficient, and reminds OAs to
coordinate with other OAs; local, state, and Federal agencies; interested
stakeholders; and the public, when appropriate. Outside stakeholders have
suggested a “one U.S. DOT” approach to improving NEPA coordination within
the Department, which would create one set of departmental implementing
procedures. However, many DOT officials shared concerns that this approach
might not adequately reflect inherent differences among the various transportation
modes. FRA is also assisting OST in its efforts to improve coordination among the
Department’s agencies on multi-modal projects, and collaboration on the use of
categorical exclusions (CE) 5 for those projects.

FRA’s implementing procedures that are intended to guide grantees through the
NEPA process are outdated and limited. Because the Agency has not updated most
of its implementing procedures since 1999, requirements from subsequent statutes
and recommended CEQ guidance have not been included. The procedures also
contain outdated terminology. For example, the procedures refer to the Office of
Policy and Program Development which no longer exists. Additionally, grantees
informed us that they needed more guidance from FRA on its NEPA process, and
that they have been forced to use other OAs’ guidance in an attempt to navigate
FRA’s process. FRA is still developing standard operating procedures (SOP) for
its staff to use in NEPA process administration and to help ensure consistency in
the environmental documentation that grantees submit. FRA officials
acknowledged that SOPs are needed to assist grants staff in their administration of
NEPA and other requirements. Finally, FRA has added new CEs, but has not
implemented CEQ’s recommended process for keeping CEs current by evaluating
its existing CEs.

We are making recommendations to improve FRA’s compliance with the NEPA
process.




5
  A category of actions for projects that do not have a significant environmental impact, and therefore may be
“excluded” from further environmental review.
                                                                                                               4


BACKGROUND
NEPA, enacted in 1969, requires that Federal agencies develop procedures to
assess the potential environmental impact of all proposed actions of federally
funded projects. It also created CEQ (the Council) which oversees agencies’
development of environmental policies and procedures, issues guidance to assist
agencies’ compliance with NEPA, and reviews and approves agencies’
procedures. The Council establishes Government-wide NEPA regulations forming
the essential framework, while departments are responsible for establishing
supplemental procedures addressing areas of general concern, and individual
agencies publish procedures addressing issues particular to its programs. DOT
issued its supplemental procedures in DOT Order 5610.1C, while FRA published
implementing instructions in the Federal Register, which were last updated in
1999. Table 1 summarizes the NEPA laws, regulations and procedures that are
most relevant to FRA and this audit.

Table 1. NEPA Laws, Regulations and Procedures Relevant to
FRA 6
Document                                           Summary
NEPA                                               • Requires Federal agencies to develop and
                                                     implement procedures to incorporate
42 U.S.C. § 4321-4347, as amended,
                                                     environmental factors into their decision-making.
Jan. 1, 1970.
                                                   • Established the Council for Environmental
                                                     Quality (CEQ) to oversee NEPA implementation.
Regulations for Implementing the                   • Define what Federal agencies must do to comply
Procedural Provisions of the National                with and achieve the goals of NEPA, including
Environmental Policy Act                             coordination.
40 CFR § 1500-1508,                                • Gives agencies broad discretionary authority to
November 28, 1978                                    interpret and implement NEPA and CEQ
                                                     regulations.
Procedures for Considering                         • Implement the mandate of NEPA, as defined and
Environmental Impacts (DOT)                          elaborated upon by CEQ regulations, within the
                                                     programs of the Department of Transportation.
DOT Order 5610.1C, as amended,
July 30, 1985                                      • Supplement the CEQ regulations by applying
                                                     them to DOT programs.
Procedures for Considering                         • Provides FRA’s procedures for compliance with
Environmental Impact (FRA)                           NEPA.
64 FR 28545, May 26, 1999
Source: OIG Analysis


6
 We discuss Titles 23 and 49 of the U.S. Code later in the report. Because they were not applicable to FRA’s NEPA
process, we did not include them in this table.
                                                                                  5


DOT must comply with NEPA for each transportation project when supported by
Federal funds. Other Federal agencies must comply with NEPA when issuing
permits, such as when a project crosses through Federal lands. FRA, like most
awarding Federal agencies, considers the NEPA process a portion of the Federal
project lifecycle. Depending on the parameters defined by a particular program,
environmental documentation may be required to be completed at the time an
agency makes an award. In other instances, some program parameters may allow
for environmental documentation to be formally completed after the agency makes
the award to the applicant. Where NEPA is required, compliance is documented in
one of the following NEPA documents, which might be followed by a
determination by the Federal agency (i.e., Finding of No Significant Impact or
Record of Decision). (see Figure 1 for an overview of the basic process):

1. For certain projects, an agency may apply what is known as a CE. Agencies
   must include a list of its CEs in their respective NEPA procedures. When
   developing the list of CEs, the agency uses its experience with certain types, or
   categories, of projects to demonstrate that the projects do not have significant
   environmental impact, and therefore may be “excluded” from further
   environmental review.

2. Where a project does not meet one of the categories of actions the agency
   identified as appropriate for a CE, an agency must prepare a more detailed
   review called an environmental assessment (EA) to analyze the potential
   environmental impacts of the project. As appropriate, after completing the EA,
   the agency might issue a Finding of No Significant Impact or begin preparing
   an Environmental Impact Statement (EIS).

3. When an agency anticipates that an action will have significant environmental
   impact, NEPA requires the agency to prepare the most detailed form of
   environmental review, an EIS, which is a comprehensive report on the
   project’s environmental impact.
                                                                                                                     6


Figure 1. Overview of the Basic NEPA Process

                 Initiate the NEPA Process
   •Develop Proposal
   •Determine level of environmental review (CE, EA, or EIS) to be
   conducted



                                                 Categorical Exclusions (CE)                                     P
                                                                                                                 R
                                   •Is the action covered by a CE listed in the agency’s NEPA procedures?   No
                                   •Are there extraordinary circumstances that merit further review?
                                                                                                                 O
                                                                                                                 C
                                                                                                                 E
                                                                                           Yes                   E
                               Environmental Assessment (EA)                                                     D
                     •Involve the public to the extent possible                             No: Issue FONSI*     W
                     •Will the action have significant environmental impacts?
                                                                                                                 I
                                                                                                                 T
                                                                          Yes                                    H

           Environmental Impact Statement (EIS)                                                                  P
                                                                                                                 R
    •The most comprehensive level of environmental review                                                        O
    •Conduct public scoping and engage the public                                                                J
    •Publish a Draft EIS for public review and comment                                                           E
    •Publish final EIS and make available to the public                                                          C
    •Sign Record of Decision                                               Record of Decision                    T



     * FONSI is a “Finding of No Significant Impact”



Source: Developed from CEQ’s NEPA-National Historic Preservation Act Section 106 Handbook

FRA COORDINATES WITH FHWA AND FTA IN COMPLIANCE
WITH NEPA, AND IS WORKING WITH OST TO FURTHER
ENHANCE THIS COORDINATION

CEQ’s regulations require agencies with similar programs to consult with each
other on the NEPA process. Both the regulations and the DOT Order provide
guidance on the definitions and timing of NEPA coordination with Federal
agencies, including OAs. Our legal review found that FRA’s implementing
procedures follow this guidance, to sufficiently define its coordination roles with
other OAs such as FHWA and FTA. In addition, our legal review found that the
authorities in Titles 23 and 49 of the U.S. Code do not appear to impact the
Agency’s ability to coordinate with these OAs. FRA is also assisting OST in its
efforts to improve coordination among the Department’s agencies on multi-modal
projects, and collaboration on the use of CEs for those projects.
                                                                                   7


FRA’s Implementing Procedures for Coordinating with FHWA and
FTA Are Sufficient and the Agency Coordinates as Required

Our legal review found that FRA has incorporated coordination language derived
from CEQ’s regulations and DOT’s Order into its implementing procedures.
CEQ’s regulations require early planning and coordination to reduce delays, and
include definitions for agencies’ different coordination roles—lead, cooperating
and joint-lead. 7 DOT’s Order 8 also outlines early planning and coordination
requirements, and defines the coordination roles for departmental OAs. Based on
CEQ and DOT’s regulations, FRA has developed the following definitions for the
types of NEPA coordination:

• Lead agency. When FRA joins other OAs in the preparation of environmental
  documentation, either an EIS or EA, the agencies should agree to designate a
  single “lead agency” to supervise the effort. The lead agency should consult
  with the other cooperating agencies to ensure that the joint effort makes the
  best use of areas of jurisdiction and of participating agencies’ special expertise,
  that the views of participating agencies are considered in the course of the EA
  and documentation process, and that the substantive and procedural
  requirements of all participating agencies are met.

• Cooperating agency. FRA is not the lead agency but assists with substantive
  and procedural compliance with environmental laws, orders, and regulations,
  and reviews the work of the lead agency to ensure that it satisfies its own
  requirements.

• Joint-lead agency effort. FRA works with one or more agencies either as a
  co-lead or directly through funding, licenses, or permits, or on a group of
  actions that are functionally interdependent, in close geographical proximity,
  or are involved in a single program. FRA’s Program Office should join all
  agencies to perform a joint EA or EIS and prepare the necessary
  documentation.

In addition to these three primary types of coordination that FRA has defined in its
implementing procedures, we reviewed the U.S. Code and identified other types of
coordination that FRA may undertake during the NEPA process. For example, one
type of coordination involves scoping a project with another OA to ensure that
both OAs’ needs and responsibilities are considered in the project’s development.
Exhibit C describes these additional types of coordination.


7
    40 CFR §§ 1501.2 - 1501.6
8
    DOT Order 5610.1C
                                                                                    8


In survey responses, HSIPR and RLR grantees indicated that FRA coordinates
with other agencies when appropriate to facilitate the NEPA process. For example,
one HSIPR grantee stated that on its project, FRA requested FHWA’s
participation as cooperating agency, and that FRA holds bi-monthly conference
calls with other agencies to brief them on high speed rail projects, which in each
instance facilitated consistent communication and allowed the projects to move
forward in a timely manner.

Recognizing the increase in multi-modal projects, FRA coordinated with FTA to
develop seven new CEs, designed to better align the Agency’s CE list with those
of FTA and FHWA. These new CEs were published in January 2013. According
to one FRA official, while it collaborated mainly with FTA, the Agency also
looked at other agencies’ CEs to determine how to align its CEs with those of
other agencies such as FHWA. FRA also coordinated with OST to review all of its
proposed CEs and supporting documentation prior to sending the proposed CEs to
CEQ for final approval.

Differing Statutory Authorities Do Not Impact FRA’s Ability to
Coordinate with FHWA and FTA

Our legal review of Titles 23 and 49 of the U.S. Code found that these statutes’
requirements do not impact FRA’s ability to coordinate with FHWA and FTA.
Both Titles are broad in nature, providing general administrative structure and
guidance to DOT and the OAs. Title 23 contains provisions, including some that
are NEPA-specific, for FHWA’s administration of Federal aid for the National
Highway System, and lays out the role of the Nation’s highways in the national
transportation system. Title 49 lays out the structure, roles, and responsibilities of
DOT and its OAs.

According to environmental law and policy experts at FRA, FHWA and FTA,
neither Title 23 nor 49 have directly impacted their coordination efforts. These
experts conclude that the Council’s guidance and DOT’s Order are more helpful,
stating that the regulatory content in both is thorough and sufficient, and reminds
the Agencies to coordinate when appropriate. For each project, DOT’s Order also
requires each OA to assume primary responsibility for the environmental review
process, and to consult with appropriate agencies and interested parties as soon as
possible. Furthermore, most Agency officials cautioned against more statutory
requirements for agency coordination, noting that such requirements are
prescriptive and often do not take into consideration differences in OAs’
programs. For example, FRA officials stated that FRA’s program and project
delivery challenges are different from those of other OAs, specifically FHWA.
FHWA and FTA officials echoed these opinions, citing differences in funding
                                                                                 9


sources, rights-of-way, and environmental impacts that require flexibility in
coordination.

FRA Is Taking Steps with the Department To Enhance NEPA
Coordination with Its Modal Counterparts

FRA is working with the Department and its modal counterparts to enhance
coordination on future multi-modal projects by establishing a process to use one
another’s CEs. An OST working group, in which FRA is a main participant, is
considering a proposal that would allow DOT’s OAs to use one another’s CEs
when working on multimodal projects. Currently, NEPA procedures provide for
adoption of EISs, but not EAs or CEs. The working group first considered the
proposal several years ago. With the introduction of MAP-21, however, the
initiative took on new purpose, as the group was tasked with redefining the
meaning of “multimodal project,” which is defined prescriptively in the statute to
only include projects receiving FHWA or FTA funds. As written, the definition
precludes other modal projects that do not have FHWA or FTA funding sources—
even if they involve multiple modes—from being considered “multimodal” and
therefore, being eligible to apply a CE under the provisions in MAP-21.

OST officials told us that they hope the group will complete its work by the end of
2013, but will need CEQ’s approval and all the OAs’ agreement. According to
officials in OST’s Office of General Counsel, the group’s results will most likely
become part of the Department’s update to its NEPA Order, which is in progress.
In contrast to the Department’s thinking, some State officials have suggested that
DOT’s OAs need to consider a “one U.S. DOT” approach to the NEPA process, in
which they all use the same implementing procedures. These officials indicated
that this approach would facilitate better departmental coordination. However, OA
and CEQ officials cautioned against this approach, pointing out that in CEQ’s
regulations, departments’ major subunits are encouraged to, with their
departments’ consent, adopt their own procedures for NEPA compliance.
Additionally, a CEQ official stated that one set of implementing procedures for all
OAs would lack the detail necessary to assist grantees in navigating the process
and could cause more confusion than clarity. Officials at FRA also indicated that
this approach would not work particularly well across all modes due to their
inherent differences.
                                                                                                                   10


FRA HAS OUTDATED AND LIMITED NEPA PROCEDURES FOR
GRANTEES, AND THE AGENCY ONLY PARTIALLY COMPLIES
WITH SOME GUIDANCE

FRA’s implementing procedures to guide grantees through the NEPA process are
outdated and limited, and the Agency has only partially complied with CEQ’s
guidance for updating CEs. The Agency has not updated most of its implementing
procedures since 1999. The procedures do not include statutory requirements and
recommendations from CEQ’s guidance and contain outdated terminology.
Furthermore, grantees informed us that they need more guidance from FRA on the
NEPA process. FRA is still developing SOPs for its staff to use in NEPA process
administration, and has not implemented CEQ’s recommended process for
keeping CEs current.

FRA’s NEPA Implementing Procedures Are Outdated and Limited,
and Standard Operating Procedures Are Still Under Development

CEQ requires Federal agencies to continuously review their NEPA policies and
procedures, and in consultation with the Council, revise them as necessary to
ensure full compliance with NEPA. The Council also encourages agencies to
publish explanatory guidance on CEQ’s regulations and their own procedures. 9 In
June 2009, FRA published a notice in the Federal Register 10 that established
guidance for NEPA compliance for the HSIPR program. However, other than
adding new CEs in January 2013, the Agency has not updated its implementing
procedures since 1999.

FRA’s procedures do not include changes required under an important
environmental provision in legislation 11 enacted after NEPA or CEQ’s
recommended changes to agency implementing procedures. For example, FRA is
required to comply with provisions of the USDOT Act Section 4(f), which places
limits on OAs’ authority to approve projects that use land from publicly owned
parks, recreation areas, or refuges, and historic sites listed in or eligible for the
National Register of Historic Places. 12 Like all Federal agencies, FRA must also
comply with provisions of the National Historic Preservation Act 13 that require
agencies to consider effects on historic sites in consultation with State Historic
9
  40 CFR § 1507.3
10
   FRA provided guidance on the NEPA process in its original program notice for the HSIPR program, published at
74 FR 29900 on June 23, 2009, and in subsequent documents that the Agency released related to HSIPR, including
“Compliance with the National Environmental Policy Act in implementing the High-Speed Intercity Passenger Rail
Program,” August, 2009.
11
   The provision is part of the Safe, Accountable, Flexible, Efficient Transportation Equity Act, a Legacy for Users of
2005 (P.L.109-59), known as SAFETEA-LU.
12
   The Department of Transportation Act of 1966, P.L. 89-670, 49 U.S.C. 303 (formerly 49 U.S.C. 1651(b)(2) and 49
U.S.C. 1653(f)).
13
   16 U.S.C. § 470(f)
                                                                                                                  11


Preservation Officers and other consulting parties. 14 FRA’s current NEPA
procedures comply with these provisions, but not 2005 amendments to the Section
4(f) requirements. 15 In particular, FRA’s current procedures do not reflect an
alternative method of approving the use of protected resources when the use’s
impact will be minor, or “de minimis.” A de minimis impact determination allows
agencies to approve minor use of historical properties without identifying and
evaluating alternatives, thus streamlining the approval process. In March 2008, in
response to the 2005 amendments, FHWA and FTA issued a final rule that
modified the procedures for granting Section 4(f) approvals, which included
procedures for making a de minimis impact determination. Because FRA has not
incorporated this change in its NEPA implementing procedures, the Agency’s
grantees do not have similar guidance and procedures in place for requesting a de
minimis impact determination. 16

FRA also has not incorporated recent recommendations from CEQ into its
implementing procedures. These recommendations are part of the Council’s 3-year
initiative to modernize and reinvigorate NEPA at the agency level. For example,
FRA has not incorporated the Council’s recommendations on the appropriate use
of mitigation and monitoring. Mitigation commitments are made by an agency to
lessen or avoid an action’s significant environmental effects that might otherwise
require complicated and lengthy environmental analysis, such as an EIS. In its
recent guidance, CEQ indicates that when an agency plans to mitigate the
environmental impact of a proposed action, the agency should make the
commitment public, adhere to the commitment, monitor the mitigation’s
implementation and effectiveness, and report on the commitment.

FRA staff stated that they have informal business practices in place to ensure that
the Agency meets its mitigation commitments, but they have not updated their
implementing procedures with these processes or submitted them for public
review and comment, which CEQ recommends to ensure transparency and public
confidence. Because it has not incorporated these recommendations into its
procedures, FRA cannot be sure that staff and program participants meet their
mitigation commitments and comply with NEPA. Table 2 summarizes the recent
CEQ guidance to Federal agencies to modernize and reinvigorate NEPA that FRA
has not incorporated into its implementing procedures.



14
   Compliance with these provisions requires assessments of properties over 50 years old (in some cases younger) to
determine eligibility for the National Register. Rail upgrades may impact bridges or stations that require assessments.
The grantee must determine whether the project would adversely affect an eligible structure, and make efforts to
resolve adverse effects. See William G. Malley and Albert M. Ferlo, “High Speed Rail Grants: The Key Role of NEPA
Compliance,” Perkins Coie, July 15. 2009.
15
   Section 6009 of SAFETEA-LU.
16
   FHWA and FTA have adopted regulations that establish procedures for making de minimis determinations.
                                                                                             12


Table 2. CEQ Modernization Guidance Not Incorporated in FRA’s
Implementing Procedures
CEQ Memorandum                             Summary
Establishing, Applying and Revising        This guidance recommends best practices for the
Categorical Exclusions under the           appropriate use of CEs and was developed as
National Environmental Policy Act,         part of CEQ’s effort to modernize and
November 23, 2010.                         reinvigorate Federal agency implementation of
                                           NEPA.
Appropriate Use of Mitigation and          This guidance indicates that when a finding of no
Monitoring and Clarifying the              significant impact depends on successful
Appropriate Use of Mitigated Findings of   mitigation, such mitigation requirements should
No Significant Impact, November 23,        be made public and be accompanied by
2010.                                      monitoring and reporting.
Improving the Process for Preparing        This guidance was issued to alert Federal
Efficient and Timely Environmental         agencies to the wide array of tools that are
Reviews under the National                 available to meet the goal of high quality, efficient
Environmental Policy Act, March 6, 2012.   and timely environmental reviews under NEPA.
Source: OIG Analysis

FRA’s implementing procedures also include outdated organizational references
that are misleading and irrelevant to users. For example, the procedures contain
twenty references to FRA’s Office of Policy and Program Development—an
organizational unit that no longer exists. Another DOT office referred to in the
procedures—the Assistant Secretary of Transportation for Policy and International
Affairs—also no longer exists. These references to organizational units and
positions that no longer exist may cause confusion and delays in navigating the
process for users of FRA’s implementing procedures.

Furthermore, though the Agency has issued several procedural and guidance
documents on NEPA, grantees generally indicated that they need additional
information to navigate the NEPA process. Since 1999, FRA has issued only
limited guidance to grantees, resulting in a number of gaps in the information
available. In addition, the Agency has been more reactive in developing guidance
to assist grantees. For example, all eight HSIPR grantees that responded to our
survey stated they used information from FHWA or FTA, including guidance to
prepare noise and vibration assessments from FTA, because similar information
was not available from FRA. Table 3 summarizes the limited NEPA procedures
and guidance that FRA has issued since 1999.
                                                                                              13


Table 3. FRA’s Procedures and Guidance for the NEPA Process

Issue Date Document                          Description
5/26/1999   Procedures for Considering       Formal regulations that establish procedures for
            Environmental Impacts            compliance with the National Environmental Policy
            (Procedures)                     Act (NEPA).
6/23/2009   High-Speed Intercity Passenger   Notice of Funding Opportunity for the HSIPR
            Rail (HSIPR) Program: Notice     program that also provided guidance on complying
                                             with NEPA.
8/13/2009   Compliance with the National     General policy and guidance on NEPA compliance
            Environmental Policy Act in      for the HSIPR program.
            Implementing the High-Speed
            Intercity Passenger Rail Program
            Categorical Exclusion Worksheet Guidance for grantees on how to evaluate whether
                                            projects qualify for categorical exclusions.
            Guidance for Completing the     Guidance to grantees on how to complete the
            Categorical Exclusion Worksheet FRA Categorical Exclusion worksheet.
8/14/2009   HSIPR NEPA Table — Overview Guidance on compliance with NEPA requirements
            of HSIPR NEPA Requirements  for the HSIPR program.
5/1/2012    Categorical Exclusion            FRA policy and justification for an additional set of
            Substantiation                   categorical exclusions.
6/13/2012   National Environmental Policy    Notice for comments on proposed additions to the
            Act Implementation               list of categorical exclusions in FRA's Procedures.
1/14/2013   Update to NEPA Implementing      Formal regulations that add seven new categorical
            Procedures                       exclusions to FRA's Procedures.
Source: OIG analysis

FRA also has not completed SOPs to guide its staff in administering the NEPA
process and assist them in performing their duties. FRA officials informed us that
they were in the process of developing SOPs, but have yet to establish a timeline
for their completion. FRA’s Environmental Protection Specialists, who had
varying degrees of experience with the NEPA process, informed us that they
wanted SOPs to help ensure completeness in the documentation they require from
grantees. For example, one Specialist stated that because there is no SOP, she does
not know what documentation to require from grantees and as a result, requests all
documentation, which may be excessive. FRA staff members acknowledged that
the lack of SOPs to administer the process hurts the Agency’s image with its
grantees. Additionally, grantees shared frustrations over a lack of consistency on
required documentation, stating that FRA does not seem to know what it wants
grantees to submit for most NEPA actions. FRA officials stated they believe this
could be because these grantees are not as familiar with FRA’s process as they are
with those of other OAs, such as FHWA’s.
                                                                                14


FRA Has Not Implemented CEQ’s Recommendations for Periodic
Reviews and Updates to CEs

While it has added CEs to those it published with its 1999 implementing
procedures, FRA has not implemented the Council’s recommended process
published in 2010 for periodic review and update of categorical exclusions. CEQ
recommends that agencies implement processes to periodically review and update
their CEs that include:

• The review of CEs on a timeline; CEQ recommends review every 7 years;

• The publication of the process on the agency’s Website; if the reviews are to
  occur less frequently than every 7 years, the agency should articulate its
  reasons;

• The development and maintenance of resources for regular CE reviews; and

• The development of procedures for recording, retrieving and preserving
  documentation on the agency’s experience with each CE.

CEQ has cited several reasons why it is important for agencies to conduct periodic
reviews. For example, such a review may reveal that grantees are not using an
existing CE because its category of actions is too narrowly defined. A review may
also reveal that a CE in place for a period of time needs revision because it
includes actions that now significantly impact the environment. The Council has
also indicated that agencies can use periodic reviews to determine whether they
are applying CEs correctly.

CEQ also informed us that, as part of its oversight role and responsibilities under
NEPA, it plans to contact agencies to ascertain the status of their CE reviews.
FRA’s lack of a documented process for reviewing and updating makes it difficult
for the Agency to be certain that it is maximizing its limited staff resources.

FRA officials indicated to us that they did not use the Council’s recommended
process for periodic review and update of its categorical exclusions because they
considered it an optional best practice. They also indicated they focused their
resources on the development and implementation of project delivery initiatives
and technical assistance rather than creating policies and procedures for their
programs.

FRA published its new CEs too late for HSIPR participants to use since funds
were obligated by the end of fiscal year 2012 and HSIPR grantees were already
committed to NEPA processes for their projects. As of May 2013, FRA officials
                                                                                15


were unable to specify any FRA projects for which the new CEs were being used.
Six of the eight grantees indicated in their survey responses that new CEs would
have applied to their projects had they been available and allowed them to avoid
the more rigorous EA process. FRA officials also acknowledged that had these
CEs been in place, some projects would not have had to complete EAs. The lack
of a process for periodic review and update of its CEs prevented FRA from
quickly developing relevant categorical exclusions for grantees to use.

CONCLUSION

FRA’s $10.1 billion HSIPR program significantly expanded the Agency’s
responsibilities, including the volume of NEPA reviews it must process. Although
FRA was not specifically subject to recent legislative changes aimed at reforming
environmental issues related to project delivery, it is important that the Agency’s
NEPA process is reflective of the current regulatory environment. As a result,
current implementing procedures and standard operating procedures are necessary
to ensure that grantees and staff comply with legal and regulatory requirements.
Use of FRA’s outdated procedures and the Agency’s lack of a process for
updating CEs may subject grantees and staff to unnecessary paperwork burdens. In
addition, the Agency will have difficulty ensuring NEPA compliance among
program participants.

RECOMMENDATIONS

We recommend that the Federal Railroad Administrator:

1. Update NEPA implementing procedures to reflect applicable environmental
   law and requirements and CEQ guidance, including the development of
   processes and timelines for updating categorical exclusions according to CEQ
   recommendations.

2. Complete a comprehensive set of standard operating procedures for internal
   staff administering the Agency’s NEPA process.
                                                                                 16


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided a draft of our report to FRA on September 18, 2013. We received
FRA’s full response on November 15, 2013, which can be found in its entirety in
the appendix of this report. In its response, FRA fully concurred with both of our
recommendations and provided appropriate planned actions and timeframes. We
consider the two recommendations resolved but open pending completion of the
planned actions.

ACTIONS REQUIRED

FRA’s planned actions and timeframes for both recommendations are responsive,
and we consider the recommendations resolved but open pending completion of
the planned actions.

We appreciate the courtesies and cooperation of FRA, FHWA, FTA and OST
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-9970, or Toayoa Aldridge, Program Director, at
(202) 366-2081.

                                         #

cc:    DOT Audit Liaison, M-1
       FRA Audit Liaison, RAD-43
       FHWA Audit Liaison, HAIM-13
       FTA Audit Liaison, TBP-30
                                                                                17


EXHIBIT A. SCOPE AND METHODOLOGY

We conducted our audit work from August 2012 through September 2013 in
accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To assess FRA’s compliance with requirements for coordination on NEPA, our
legal staff identified applicable laws and regulations the Agency must follow. We
conducted legal analysis to assess which components of the laws and
regulations—such as CEQ coordination requirements and the DOT Order—FRA
incorporated in its implementing procedures and compared them to CEQ
coordination requirements. We also interviewed officials at FRA, FHWA, FTA,
and OST, a senior official at CEQ, and several grant recipients at State
departments of transportation. We also administered a questionnaire via email
with an online survey tool to participants in FRA’s HSIPR, RLR, and the RRIF
programs regarding their experiences with the Agency’s NEPA process, guidance,
and coordination efforts. To determine the extent to which Titles 23 and 49 of the
U.S. code impact FRA’s ability to coordinate with its modal counterparts on
NEPA, our legal staff analyzed the titles for their impacts on FRA’s NEPA
processes and procedures in addition to any impacts the titles have on FHWA and
FTA.

To determine whether FRA’s NEPA procedures included relevant statutory
requirements and CEQ guidance, we reviewed FRA’s implementing procedures
and other guidance they have made available to program participants. Our legal
staff performed historical analysis of FRA’s NEPA implementing procedures to
identify updates the Agency has made since their inception, including assessments
of categorical exclusion changes and the incorporation of relevant laws such as
SAFETEA-LU and MAP-21, as applicable. We also interviewed officials at FRA,
OST, CEQ, and professional transportation associations, the American Short Line
Railroad Association and the American Association of State Highway and
Transportation Officials. We also administered a survey to FRA’s five
Environmental Protection Specialists to better understand their perspectives on
FRA’s internal and external NEPA guidance.

We sent our program participant survey to 27 entities—9 HSIPR participants, 9
RRIF participants, and 9 RLR participants. HSIPR and RRIF recipients were
selected on the basis of funding amounts, with the top nine highest funded entities



Exhibit A. Scope and Methodology
                                                                                                             18


from each program receiving the questionnaire. OIG statisticians randomly
selected—rather than based on funding amounts—the nine RLR participants.
17
   The nine HSIPR recipients represented over 85 percent of total awarded HSIPR
funding, and the nine RRIF questionnaire recipients represented over 85 percent of
total RRIF awards. Response rates varied with eight HSIPR grantees responding
and four RRIF participants and four RLR participants responding to the survey.




17
   We chose the 9 HSIPR survey recipients from the 35 entities that received HSIPR funding from FRA. We chose the
9 RRIF survey recipients from 33 individual loans recipients of FRA between fiscal years 2002 and 2013. We
randomly selected the 9 RLR survey recipients from a list of entities that received $1 million or more from FRA
through the RLR program – which resulted in a universe of 31 entities.


Exhibit A. Scope and Methodology
                                                            19




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                    Title

Toayoa Aldridge                         Program Director

Amanda Seese                            Project Manager

Keith Klindworth                        Senior Analyst

Michael Day                             Analyst

Nick Coates                             Associate Counsel

Meg Brown                               Honors Attorney

Susan Neill                             Writer/Editor

Megha Joshipura                         Statistician




Exhibit B. Major Contributors to This Report
                                                                                               20




EXHIBIT C. TYPES OF FRA NEPA COORDINATION
       Coordination
       Requirement                 Description
                                   Agencies will incorporate material into an EIS by reference
                                   [to other agency decision] when the effect will be to cut
 1.    Incorporation of Material
                                   down on bulk without impeding agency and public review of
                                   the action.
       Adoption of Environmental   An agency may adopt appropriate environmental
 2.
       Documents                   documents prepared by another agency.
                                   CEQ requires agencies to “reduce delay by emphasizing
       Reduction of Delay
                                   interagency cooperation before the EIS is prepared rather
 3.    Through Interagency
                                   than the submission of adversary comments on a
       Cooperation
                                   completed document.”
                                   CEQ requires agencies to reduce delay by “insuring the
 4.    Cooperation on Disputes
                                   swift and fair resolution of lead agency disputes.”

                                   Coordination is necessary when agencies must work
 5.    Coordination on EAs
                                   together on EAs.
                                   Coordination is required when one agency has been
       Coordination Between
                                   assigned lead agency status and other agencies have been
 6.    Lead and Cooperating
                                   assigned as cooperating agencies. The purpose is to
       Agencies
                                   emphasize agency cooperation early in the NEPA process.
                                   An agency may need to cooperate with another Federal
 7.    Cooperation on Scoping
                                   agency on scoping of a project.

                                   After preparing a draft EIS and before preparing a final EIS,
 8.    Cooperation on EISs         the agency will obtain the comments of any agency which
                                   has jurisdiction by law or special expertise.
                                   Agencies may be required to cooperate to ensure that
       Cooperation on Monitoring   mitigation and other conditions established in an EIS or
 9.
       of Mitigation               during its review and committed as part of the decision will
                                   be implemented.
                                   Agencies with similar programs should consult with each
       Consultation on Similar     other and the CEQ on their implementing
 10.
       Programs                    procedures, especially for programs requesting similar
                                   information from applicants.
                                   Agencies are supposed to cooperate on the development
       Cooperation in the          of CEs by using the administrative records for CEs
 11.
       Development of CEs          developed by other agencies (latest CEQ Guidance on
                                   categorical exclusions).
Source: 40 CFR 1500-1508, CEQ Guidance




Exhibit C. Types of FR A NEP A Coordination
                                                                                21


EXHIBIT D. FRA CATEGORICAL EXCLUSIONS AS OF MAY 2013

Published at 64 FR 28545 on May 26, 1999:

(1) Administrative procurements (e.g. for general supplies) and contracts for
personal services;

(2) Personnel actions;

(3) Financial assistance or procurements for planning or design activities which do
not commit the FRA or its applicants to a particular course of action affecting the
environment;

(4) Technical or other minor amendments to existing FRA regulations;

(5) Internal orders and procedures not required to be published in the Federal
Register under the Administrative Procedure Act, 5 U.S.C. 552(a)(1);

(6) Changes in plans for an FRA action for which an environmental document has
been prepared, where the changes would not alter the environmental impacts of
the action;

(7) Rulemakings issued under section 17 of the Noise Control Act of 1972, 42
U.S.C. 4916;

(8) State rail assistance grants under 49 U.S.C. 22101 et seq. for rail service
continuation payments and acquisition, as defined in 49 CFR 266;

(9) Guarantees of certificates for working capital under the Emergency Rail
Services Act (45 U.S.C. 661 et seq.);

(10) Hearings, meetings, or public affairs activities;

(11) Maintenance of: existing railroad equipment; track and bridge structures;
electrification, communication, signaling, or security facilities; stations;
maintenance-of-way and maintenance-of-equipment bases; and other existing
railroad-related facilities. For purposes of this exemption ‘‘maintenance’’ means
work, normally provided on a periodic basis including the changing of
component parts, which does not change the existing character of the facility, and
may include work characterized by other terms under specific FRA programs;

(12) Temporary replacement of an essential rail facility if repairs are commenced
immediately after the occurrence of a natural disaster or catastrophic failure;




Exhibit D. FR A Cat egorical Exclusions as of May 2013
                                                                                      22


(13) Operating assistance to a railroad to continue existing service or to increase
service to meet demand, where the assistance will not result in a change in the
effect on the environment;

(14) State rail assistance grants under 49 U.S.C. § 22101 et seq. for relocation
costs as that term is defined in 49 CFR Part 266, where the relocation involves
transfer of a shipper to a site zoned for the relocated activity. This categorical
exclusion shall not apply to the relocation of a shipper involved in the
transportation of any material classified as a hazardous material by DOT in
49 CFR Part 172;

(15) Financial assistance for the construction of minor loading and unloading
facilities, provided that projects included in this category are consistent with local
zoning, do not involve the acquisition of a significant amount of land, and do not
significantly alter the traffic density characteristics of existing rail or highway
facilities;

(16) Minor rail line additions including construction of side tracks, passing tracks,
crossovers, short connections between existing rail lines, and new tracks within
existing rail yards provided that such additions are not inconsistent with existing
zoning, do not involve acquisition of a significant amount of right-of-way, and do
not significantly alter the traffic density characteristics of the existing rail lines or
rail facilities;

(17) Acquisition of track and bridge structures, electrification, communication,
signaling or security facilities, stations, maintenance-of-way or maintenance-of-
equipment bases, and other existing railroad facilities or the right to use such
facilities, for the purpose of conducting operations of a nature and at a level of
use similar to those presently or previously existing on the subject properties;

(18) Research, development and/or demonstration of advances in signal,
communication and/or train control systems on existing rail lines provided that
such research, development and/or demonstrations do not require the acquisition
of a significant amount of right-of-way, and do not significantly alter the traffic
density characteristics of the existing rail line;

(19) Improvements to existing facilities to service, inspect, or maintain rail
passenger equipment, including expansion of existing buildings, the construction
of new buildings and outdoor facilities, and the reconfiguration of yard tracks;

(20) Promulgation of railroad safety rules and policy statements that do not result
in significantly increased emissions of air or water pollutants or noise or increased
traffic congestion in any mode of transportation;



Exhibit D. FR A Cat egorical Exclusions as of May 2013
                                                                                     23


Added by 78 Federal Register 2713 on January 14, 2013:

(21) Alterations to existing facilities, locomotives, stations and rail cars in order to
make them accessible for the elderly and persons with disabilities, such as
modifying doorways, adding or modifying lifts, constructing access ramps and
railings, modifying restrooms, and constructing accessible platforms.

(22) Bridge rehabilitation, reconstruction or replacement, the rehabilitation or
maintenance of the rail elements of docks or piers for the purposes of intermodal
transfers, and the construction of bridges, culverts, or grade separation projects,
predominantly within existing right-of-way, that do not involve extensive
in-water construction activities, such as projects replacing bridge components
including stringers, caps, piles, or decks, the construction of roadway overpasses
to replace at-grade crossings, construction or reconstruction of approaches and/or
embankments to bridges, or construction or replacement of short span bridges.

(23) Acquisition (including purchase or lease), rehabilitation, or maintenance of
vehicles or equipment that does not cause a substantial increase in the use of
infrastructure within the existing right-of-way or other previously disturbed
locations, including locomotives, passenger coaches, freight cars, trainsets, and
construction, maintenance or inspection equipment.

(24) Installation, repair and replacement of equipment and small structures
designed to promote transportation safety, security, accessibility, communication
or operational efficiency that take place predominantly within the existing
right-of-way and do not result in a major change in traffic density on the existing
rail line or facility, such as the installation, repair or replacement of surface
treatments or pavement markings, small passenger shelters, passenger amenities,
benches, signage, sidewalks or trails, equipment enclosures, and fencing, railroad
warning devices, train control systems, signalization, electric traction equipment
and structures, electronics, photonics, and communications systems and
equipment, equipment mounts, towers and structures, information processing
equipment, and security equipment, including surveillance and detection cameras.

(25) Environmental restoration, remediation and pollution prevention activities in
or proximate to existing and former railroad track, infrastructure, stations and
facilities conducted in conformance with applicable laws, regulations and permit
requirements, including activities such as noise mitigation, landscaping, natural
resource management activities, replacement or improvement to storm water
oil/water separators, installation of pollution containment systems, slope
stabilization, and contaminated soil removal or remediation activities.

(26) Assembly or construction of facilities or stations that are consistent with
existing land use and zoning requirements, do not result in a major change in


Exhibit D. FR A Cat egorical Exclusions as of May 2013
                                                                                   24


traffic density on existing rail or highway facilities and result in approximately
less than ten acres of surface disturbance, such as storage and maintenance
facilities, freight or passenger loading and unloading facilities or stations, parking
facilities, passenger platforms, canopies, shelters, pedestrian overpasses or
underpasses, paving, or landscaping.

(27) Track and track structure maintenance and improvements when carried out
predominantly within the existing right-of-way that do not cause a substantial
increase in rail traffic beyond existing or historic levels, such as stabilizing
embankments, installing or reinstalling track, re-grading, replacing rail, ties, slabs
and ballast, installing, maintaining, or restoring drainage ditches, cleaning ballast,
constructing minor curve realignments, improving or replacing interlockings, and
the installation or maintenance of ancillary equipment.




Exhibit D. FR A Cat egorical Exclusions as of May 2013
                                                                                                 25




           APPENDIX. AGENCY COMMENTS




           U.S. Department
           of Transportation
           Federal Railroad Administration       MEMORANDUM
           INFORMATION: Management Response to the
             Office of the Inspector General (OIG) Draft
Subject:     Report on Federal Railroad Administration                    Date:   November 15, 2013
             National Environmental Policy Act (NEPA)
             Program

  From:
           Joseph Szabo
           Federal Railroad Administrator
           Mitchell L. Behm
                                                                      Reply to
    To:    Assistant Inspector General for Rail, Maritime,         the Attn of:   ROA-03
            Hazmat Transport and Economic Analysis

           The Federal Railroad Administration’s (FRA) NEPA implementing procedures have
           successfully guided FRA staff and grantees for decades in completing small projects and
           multi-billion dollar railroad development programs. Since the 1970s, FRA has
           effectively implemented NEPA in carrying out programs, such as the Northeast Corridor
           Improvement Project, Amtrak’s Northend Electrification Project, the Next Generation
           High-Speed Rail Program, and the High-Speed and Intercity Passenger Rail (HSIPR)
           Program.

           For the HSIPR Program in particular, FRA’s small environmental team worked hand-in-
           hand with grantees to complete over 120 environmental reviews since the inception of the
           program. These reviews have facilitated construction activity for over 38 projects to
           date, representing $3.6 billion in federal funding. FRA avoided potential delays and
           allowed these HSIPR projects to advance more readily by deciding to postpone the
           planned update of FRA’s NEPA implementing procedures. Rather than focusing on
           revising the implementing procedures or developing new standard operating procedures,
           FRA’s NEPA staff instead worked directly with grantees to expedite preparation of
           legally sufficient project documentation.



           Appendix. Agency Comments
                                                                                      26


Moreover, FRA prioritized the creation of new categorical exclusions over a revision of
the NEPA implementing procedures and started this effort as soon as the need became
apparent. Although the process to create categorical exclusions took more effort and time
than FRA anticipated, FRA has used these new categorical exclusions during 2013 to
speed clearance of independent components of HSIPR corridor investment programs.
FRA further accelerated HSIPR projects by accommodating established State processes
and systems and supporting grantees’ use of alternate guidance. FRA works closely with
the States giving them extensive responsibilities in preparing NEPA documentation,
reflecting FRA’s long-standing partnership with State departments of transportation.
When HSIPR grantees asked about using other U.S. Department of Transportation (the
Department) agency guidance, FRA often supported use of such existing guidance, which
was familiar to grantees and therefore saved time and effort.

Recommendations and Responses

OIG Recommendation 1: Update NEPA implementing procedures to reflect applicable
environmental law and requirements and CEQ guidance, including the development of
processes and timelines for updating categorical exclusions according to CEQ
recommendations.

   FRA Response: Concur – FRA agrees with the recommendation and expects to issue
   revised NEPA implementing procedures in April 2015, following an August 2014
   draft for public comment. Related developments will likely influence the timing and
   final form of FRA’s revised procedures. For example, the Department is in the
   process of revising its NEPA order. In addition, legislation to reauthorize rail and
   other surface transportation programs is now under development. The outcomes of
   these two initiatives might lead to changes in FRA NEPA requirements or practices.

OIG Recommendation 2: Complete a comprehensive set of standard operating
procedures for internal staff administering the Agency’s NEPA process.

   FRA Response: Concur – FRA agrees with the recommendation and has begun
   preparing such internal standard operating procedures. FRA expects to complete this
   effort by June 2014.

We appreciate this opportunity to offer additional perspective on the OIG draft report.
We also appreciate the courtesies of the OIG staff in conducting this review. Please
contact Rosalyn G. Millman, Planning and Performance Officer, at 202.384.6193, with
any questions or requests for additional assistance.




Appendix. Agency Comments
